No.

In the
Supreme Court of the United States

In Re: GARY E. PEEL

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
The undersigned hereby certifies that he did serve a courtesy copy of the
following:
a) PETITION FOR WRIT OF MANDAMUS
b) MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS {with
attached “AFFIDAVIT ACCOMPANYING MOTION FOR PERMISSION TO
PROCEED IN FORMA PAUPERIS” and SUPPLEMENT)
c) CERTIFICATE OF COMPLIANCE WITH TYPE-VOLUME LIMIT,
TYPEFACE REQUIREMENTS, AND TYPE STYLE REQUIREMENTS
with this “Certificate of Service” attached, on the following:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530 0001
and
Ms. Jennifer Hudson (Attorney for Barbra Zarrick)
Assistant United States Attorney
Nine Executive Drive
Fairview Heights, IL 62208

by depositing same in the United States Postal Service Office located at 10850
Lincoln Trail, Unit 20, Fairview Heights, Illinois, by first class mail, withjp6sjage
prepaid, on this 12tday of July 2021.
’eelTpro se
970j/ (l(ear)Fairmont Road
FaiJrvjew Heights, IL 62208
Garvepeel@Hotmail.com
Phone: 618-514-7203
Gj

